SupremeCourt, U.S.
FILED

No. 21-

JUL - 1 2021

IN THE
OFFICE OF THECLFBK-

SUPREME COURT OF THE UNITED STATES
Solomon Adu-Beniako
Petitioner,
vs.

Respondent.
Michigan License and Regulation Affairs (LARA)
On Petition for a Writ of Certiorari to
The Michigan Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

Solomon Adu-Beniako
31568 Bridge Street
Livonia, Ml 48152

248-660-2864
adubeni@yahoo.com
c—

JUL - fi 2021
gragiM°PFcToHu£RcT:-&RsK

First Question.
The United States is in the throes of a public health crisis arising from the abuse of opioids.
Opioids are addictive, prone to abuse, and readily available in illegal forms, such as heroin and
synthetic fentanyl. At the same time, the federal government's Health and Human Services Pain
Management Best Practices Inter-Agency Task Force has determined that tens of millions of
Americans rely on legal prescription opioids to treat acute or severe chronic pain, including pain
arising from cancer as well as terminal or degenerative illnesses. The Food and Drug
Administration (FDA) long ago approved opioid medications for these purposes, and doctors
throughout the country lawfully prescribe them. Congress tasked DOJ and its sub-agency DEA
with primary responsibility for preventing drug abuse. With respect to illegal opioids—the chief
cause of opioid overdose deaths—DEA's and DOJ's duty is to keep those drugs off the streets
and to find and punish the criminals who push them. Through the CSA, Congress similarly
entrusted DEA with the responsibility for regulating legal opioids. DEA is responsible for
enforcing the CSA in a way that preserves legitimate patients' access to pain-relief medications
prescribed by their doctors while preventing diversion, misuse, and abuse. As such, Congress
has charged DEA with regulating every step in the opioid supply chain.
Watchdog agencies have meticulously catalogued, however, myriad ways in which DEA has
failed to safeguard the public from improper diversion of prescription opioids. In the shadow of
their own profound failures, DOJ and DEA now seek to retroactively impose on physicians
unworkable requirements that are not found in any law and go beyond what physicians are
trained and licensed to perform- to investigate and arrest criminals.

The first question presented is:
Does the Respondent's unfairly tasking, and blaming the Petitioner for the DOJ/DEA
responsibility violate the Petitioner's Constitutional rights ?

ii

Second Question.
On January 22nd 2018, based on uncorroborated MAPS and wild lies, the State of Michigan
suspended the Plaintiff's controlled license. Speculation based on uncorroborated MAPS
reports is not credible," citing Michigan Aero Club v. Shelly, 283 Mich 401; 278 NW 121 (1938),

The second presented is :
Whether the Respondent usage of uncorroborated MAP violate the Due process clause ?

Third Question.
The medical-malpractice expert-testimony statute, MCL 600.2169, states that an expert witness
must be licensed and, "if [the defendant] is a specialist who is board certified, the expert
witness must be a specialist who is board certified in that same specialty." MCL 600.2169(l)(a).
The Petitioner is Board certified in Addiction Medicine. The Respondent's expert witness, Dr.
David Nicolaou is board certified in Emergency Medicine. The Respondent's second expert
witness, Ms. Janice Waldmiller is only a Registered Pharmacy. The Petitioner objected to the
two offering any testimony. The respondent acting as the prosecutor and the judge disregarded
the Petitioner's objection. Both expert witnesses had no knowledge, to low quality
knowledge in chronic diseases and out patient settings, and drew inferences before knowing
all the facts.

The Third question presented is:
Whether the Respondent expert testimony was in violation of Due Process?

Fourth Question.
iii

The authors of the CDC guidelines Dr. Deborah Dowell, Dr. Tamara Haegerich and Dr, Roger
Chou specifically stated that the CDC guidelines are only clinical recommendations, they are
NOT laws, rules or regulations. They do not have the effect of law.
The Plaintiff’s own guidelines were more stringent than the CDC guidelines, see CDC,
Guidelinefor Prescribing Opioidsfor Chronic Pain (Mar. 18, 2016).
https://www.cdc.gov/drugoverdose/pdf/Guidelines_At-A-Glance-508.pdf
The Michigan Court of Appeals ruled that the Petition violated the CDC guidelines

The Fourth question presented is:
Whether CDC guidelines have effect of law?

Fifth Question.
The court "may not find substantial evidence 'merely on the basis of evidence which in and of
itself justified [the agency's decision], without taking into account contradictory evidence or
evidence from which conflicting inferences could be drawn."' Lakeland Bus Lines, Inc. v. NLRB,
347 F.3d 955, 962 {D.C. Cir. 2003) (quoting Universal Camera Corp. v. NLRB, 340 U.S. 474, 487,
71 S.Ct. 456, 95 LEd. 456 (1951)). And, while the agency is the ultimate factfinder, the
Plaintiff's evidence and testimony are part of the record, and the record must be considered as
a whole in order to see whether the result is supported by substantial evidence.
The Fifth question presented is:
Whether it is proper for the Court to set aside a judgment if the whole record on file is not
reviewed?

Sixth Question.

iv

The Petitioner was a respected professional in the community and has spent his life building a
positive reputation. Nevertheless, he uncovered that the Respondent has been maliciously
spreading inaccurate and unfounded information that is damaging to his personal and
professional character. The aforesaid defamatory statement has harmed Petitioner reputation;
such a statement has a tendency to injure and has injured the Petitioner in his occupation, his
future business and employment prospects have been severely harmed, the Petitioner has had
to incur substantial expense, in order to redress the harm he has suffered and continued to
suffer.
Under the laws in the State of Michigan, it is unlawful for an individual to make deliberate
statements that intend to harm a person's reputation without factual evidence or based on
hearsay.

The Sixth question presented is:
Whether uncovering of new evidence warrant review of a case?

Question Presented

ii-v

Table of Contents

,v- VI
vii-viii

Table of Authorities

1

Petition for Writ Of Certiorari
Opinions Below

1

Jurisdiction

1

Constitutional Provisions Involved

1-16

Statement of the Case

6

REASONS FOR GRANTING THE WRIT
CONCLUSION

16

APPENDIX

vi

Exhibit A Administrative Complaint and Answers to the Complaint
Exhibit B Judgment Dissolving Summary Suspension by Judge Erick Williams
Exhibit C Oxycodone Records
Exhibit D Oxymorphone Records
Exhibit E Promethazine with Codeine Records
Exhibit F Brief- Michigan Supreme Court
Exhibit G Opinion of Michigan Court of Appeals
Exhibit H Order of Michigan Supreme Court

vi

Cases
Ass'n of the United States, Inc. v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43,103 S.Ct. 2856,

11

77 L.Ed.2d 443(1983),

In Boyd v Wynadotte, 402 Mich 98,104-105; 260 NW2d 439 (1977)-----8
Clements v. Clements, 2 Mich App 370; 139 NW2d 918 (1966)— 6
Dep't of Community Health v. Anderson, 299 Mich.App. 591,597, 830 N.W.2d 814 (2013)

11
Dep't of Community Health v. Risch, 274 Mich.App. 365, 371, 733 N.W.2d 403 (2007).

12

Harris v Hanks, 84 F Applx 680, 682 (7th Cir. 2003)
Lakeland Bus Lines, Inc. v. NLRB, 347 F.3d 955, 962 (D.C. Cir. 2003)

10

Michigan Aero Club v Shelley, 283 Mich 401; 278 NW 121 (1938)

6

. Northwestern Nat'l Cas. Co. v.Comm'r of Ins., 231 Mich.App. 483,488, 586 N.W.2d 563

12

(1998).
State v Baker, 103 SW3d 711, 721 (MO Sup Ct, 2003)

11

Tourus Records, Inc. v. DEA, 259 F.3d 731, 736 (D.C. Cir. 2001)

Universal Camera Corp. v. NLRB, 340 U.S. 474,487, 71 S.Ct. 456, 95 L.Ed. 456 (1951))-10
Statutes

6, 7-

MCL 600.2169(l)(a)

1

Under 28 U.S.C. §1257(a)

11

US Constitution

vi - vii

Miscellaneous

vii

11

TUSSIONEX

7

NORCO-

5

PROMETHAZINE WITH CODEINE

5

CDC Guidelines - clinical recommendations, NOT laws, rules or regulations. They do not have
the effect of law

13

Supporting Medical Literatures for concurrent treatments of Pain and Anxiety™ 9

viii

Petition for Writ Of Certiorari
The Petitioner respectfully petitions this court for a writ of certiorari to review
the opinion of the Michigan Court of Appeals.
Opinions Below
The opinion of the Michigan Court of Appeals affirming the decision of the Michigan
Subcommittee is reported as Department of Licensing & Regulatory Affairs v. Adu-Beniako (In
re Adu-Beniako), No. 348668 (Mich. Ct. App. May. 14,2020). The Michigan Supreme Court
denied review on March 30th 2021.

Jurisdiction
The Petitioner's appeal to the Michigan Supreme Court was declined to review on
March 30th 2021. The petitioner seeks review of the state-court decision, this Court's
jurisdiction is being invoked under 28 U.S.C. §1257(a) having timely filed this petition for a writ
of certiorari within ninety days of the Michigan Supreme Court’s order.

Constitutional Provisions Involved
United States Constitution, Amendment 5th and 14th Amendments.

Statement of the Case
In 2008, the Petitioner incorporated East & West Physicians, which he owns 100%. However, he
didn't do any business or treat any patients at East & West Physicians until August 2016. He
treated his first patient at East & West Physicians on August 28,2016. The Plaintiff treated two
groups of patients. The first group was the addiction group. The addiction group consisted of
patients who were battling mostly heroin. This group consisted of about 99% heroin addicts and
about 1% were patients who were abusing and using prescription opioids in large quantities.

1

The Petitioner’s office was one of the office-based centers registered at the Substance Abuse
and Mental Health Services Administration (SAMBHSA) website. The Providers at this website
had gone through training, taken tests and had been given special DEA numbers which permitted
them to treat patients who had been battling opioid addictions especially heroin. The second
group consisted of other chronic cases. MB, JJ, LL, SK, BS and MO were all other chronic
cases. The six patients chosen for review by the Respondent, all had something in common. All
of them had pain score levels in the range of 8-10 out of 10.
In October 2016, the Petitioner saw his first prescription fraud from Jefferson Pharmacy,
Detroit, Michigan. The Petitioner at that time informed the Respondent, Detroit DEA and filed
Police report in Detroit etc. The Petitioner never had arresting power to arrest people. All what
the Petitioner had to do was to wait for the law enforcements to effect the arrests of the
perpetrators, which never happened.
. In December 2016 the Petitioner pulled “MAPS” report on MB and found out that MB had
fraudulently filled Oxycodone and Xanax 2mg at Meijier’s Pharmacy in East Lansing, about 70
miles away from the Petitioner’s office location. The Petitioner tried to call MB to find out how
she got the prescription. MB did not respond and the Petitioner filed police report with East
Lansing Police (Case #1736400173). At that time Meijer’s Pharmacist had informed the
Petitioner that someone at the Petitioner’s office called Dana had verified the prescription. But
there was no one at the Petitioner’s office called Dana. All the Petitioner’s employees denied
any involvement when questioned. In early April 2017, the State of Michigan requested for the
charts of MB, BS, JJ, LL, MO, SK. When the Petitioner pulled MAP reports on JJ, LL, MO, he
found out that the three had pulled the same scheme as MB did. The three had fraudulently filled
Oxycodone and Xanax 2mg using the Petitioner’s credentials at Meijer’s Pharmacies in Lansing,
Michigan and Dewitt, Michigan, about 70 miles away. At that time Lansing and Dewitt Police
departments refused to file police reports over the phone directing the Petitioner to the City of
Southfield, the location of the Petitioner’s office. When the Petitioner contacted the Southfield
Police to file reports, they also refused, claiming that the prescriptions were filled at different
location, hence the Southfield Police had no jurisdictions. All the six were not even the
Petitioner’s patients in early April 2017 when the Michigan Board asked for their charts. SK
was dropped in October 2016 due to Doctor shopping. BS’s insurance did not pay for services
2

provided due to networking problem. MB, JJ, LL, MO did not come back after the prescription
fraud scheme. In April 2017, the Petitioner wrote a letter to the Michigan Medical Board
reiterating that he had never written powerful pain medications such Oxycodone, Oxymorphone,
hydromorphone in his life. That any pain medication exceeding 30 MMED under his credentials,
should be investigated right away.
To give this Court a brief summary of what happened, in early May 2017 the Petitioner had a
meeting with Janice Waldmiller Rph, a pharmacy inspector with the State of Michigan at
Southfield Library concerning “ over prescribing of controlled medications”. At that time the
Petitioner let Ms. Waldmiller know that his DEA number had been compromised and showed
her some police reports that he had filed. The Petitioner also let Ms. Waldmiller know that he
did not prescribe powerful medications such as Oxycodone, Oxymorphone, hydromorphone,
Morphine, Xanax 2 mg etc. Next, the Petitioner let her know that he did not prescribe any pain
medication that exceeded 30 Morphine Milligram Equivalent/day (30 MME/day). (Note the
MME/day per the state and federal standard is 90 MME/day). The Petitioner let Ms. Waldmiler
know that any pain medication exceeding 30 MME/day, under the Petitioner warranted
immediate investigation. Before parting the early May 2017 meeting, Ms. Waldmiller promised
the Petitioner that she would come to the Petitioner’s office at a later date to show him more
prescriptions. On or around 31st May 2017, Ms Waldmiller came to the Petitioner’s office with
a huge stack of prescriptions. Those were prescriptions for medications exceeding 30 MME. Ms.
Waldmiler and the Petitioner plugged the names on the prescriptions into the Petitioner’s
computer, to check the names against the Petitioner ’s patients' population. NOT a single match.
Ms. Waldmiller advised the Plaintiff to contact the Detroit DEA and change his DEA number. In
June 2017, the Petitioner spoke to Detroit DEA agent, Mr. Patrick Reimann. After hearing the
Petitioner’s story, Mr. Reimann and the Petitioner came to conclusion that changing the DEA
number alone would not solve the problem. Because the information on the prescriptions
matched the Petitioner’s office information, it looked like the person behind the prescription
frauds was someone closed to the Petitioner. That person would still get hold of the new DEA
number since the Petitioner had to be putting the numbers on the prescription pads. Mr.
Reimann let the Petitioner know that the new vendor the State of Michigan had, allowed
providers to “MAP” themselves. In other words the new feature allowed providers to see people
who had filled prescriptions under their credentials. That the Petitioner could” MAP” himself
3

while he waited for the Police to apprehend the perpetrators. Right away the Petitioner contacted
the vendor to learn how to use the new feature to MAP himself. The vendor spent hours over the
phone with the Petitioner but the new feature couldn’t work for the Petitioner. Meanwhile the
prescription fraud continued and the Plaintiff kept on filing Police reports. The Plaintiff
encountered numerous Police abuses, humiliations and unwillingness to assist. That dampened
the hope and the spirit of the Petitioner. It was only Warren Police Department which sent one
of the criminals to jail but the person went in for only 95 days. The person did not expose the
source of the prescription frauds due to the light sentence. The person in question came all the
way from Grand Rapids , Michigan about 145 mile away, to Warren Michigan to fill
prescriptions for Norco (Hydrocodone and Acetominophin) and Promethazine with Codeine
under the Petitioner s credentials. .The inactions of the area Police emboldened these criminals
to continue their criminal activities.

In October 2017 with the help of Safari Pharmacy in Detroit, Michigan, Ms. Krystalla Cross
Medical Assistant of the Plaintiff was caught red-handed verifying prescription of Norco (
Hydrocodone and Acetominophen) and Promethazine with Codeine for someone called Macy
Glover, a person who had never been the Petitioner’s patient. The Petitioner has a voice
recording of Ms Cross engaging in the prescription fraud using alias Anita (Transcript, 3/14/18,
pp. 33, 214-218.)). Ms Cross worked for the Petitioner from September 2016 until she was
caught and fired in October 2017. Krystalla Cross was fired and police reports filed. Krystalla
Cross lied to the Petitioner for over a year. The person doing the prescription frauds was using
different aliases to verify prescriptions and was mostly dealing with cooperating Pharmacists
and people who were not the Petitioner’s patients. This made it difficult for the Petitioner to tie
the frauds to a specific person or group. All the employees including Krystalla Cross were
questioned several times and all of them including Krystalla Cross, each time steadfastly denied
any involvement. This went on until October 2017, that was when Krystalla Cross was caught
red-hand engaging in the prescription fraud using alias Anita (Transcript, 3/14/18, pp. 33,214218.)).
In November 2017 the Petitioner found out from the head of MAPS, Mr. Andrew Hudson that
the State of Michigan had blocked the Plaintiff from “MAPING” himself preventing him from
4

seeing people who had filled prescription under his credentials. Making the Petitioner’s problem
worse.
The Petitioner was a respected professional in the community and had spent his life building a
positive reputation. The Petitioner had never had malpractice lawsuit filed against him in his
entire life and had unblemished reputation and was ready to meet with law enforcement agents
any time any day anywhere to give them the necessary and clean information to help them
investigate, arrest and prosecute. But the Detroit police were thinking about homicides not
prescription frauds.
There were and still are a lot of patients in Detroit Metropolitan area. Even more than what the
Petitioner could see. Why would the Petitioner knowingly see patients who would give him
trouble? There were a lot of apples, why would the Petitioner knowingly pick up the one which
would give him a stomachache? Everything was done for legitimate medical purposes, and in
“good faith.”
Hydrocodone is a semisynthetic, moderately potent, orally available opioid that, in combination
with acetaminophen, is widely used for treatment of acute or chronic pain, and in combination
with antihistamines or anticholinergics used to treat cough. The FDA indication for Norco
(Hydrocodone and Acetaminophen ) is for moderate to severe pain. Hydrocodone was first
manufactured in 1920 and was introduced in the US market on March 23rd 1943. The half life of
hydrocodone is 4 hrs to 6 hrs. The medication is metabolized by the liver enzymes. Hydrocodone
does not stay in the human body forever. Medications taken several days ago may not show in
the urine. For example JJ was seen on November 4th 2016 and he came back on December 8 ,
2016. JJ was given only 30 days medication with no refill. But JJ came back after 34 days, if JJ’s
urine drug screen was negative. That was correct, the medication had been eliminated from his
body. As for the Codeine which is a pro drug and was given for a maximum of 10 days. If JJ,
LL, MO and MB came back after 30 days and the urine drug screens for codeine were negative.
That was correct. The codeine had been eliminated from their bodies. The FDA indication for
Promethazine with Codeine is for cough. JJ, LL, MO MB received not more than 8 oz of this
medication as needed which lasted from 7 to 10 days which was good for acute cough. Patients
were seeing the Plaintiff once a month for monitoring and thorough assessments. Patients were
advised that if they did not kick the bad risk habit such as continuing smoking, the cough would
5

come back. All the six patients were smokers. Janice Waldmiller was always surrounded with
controversies because she had been drawing conclusions without any solid facts.
On January 22nd 2018, based on uncorroborated Michigan Automated Prescription System
(MAPS) and fabricated evidence, the Respondent suspended the Petitioner license. Speculation
based on uncorroborated MAPS reports is not credible,” citing Michigan Aero Club v. Shelly,
283 Mich 401; 278 NW 121 (1938), holding that a mere claim cannot stand in the place of
evidence and operate a proof; things not make to appear must be taken as not existing, *** Courts
do not guess in the absence of evidence. [Emphasis added] Clements v. Clements, 2 Mich App
370; 139NW2d 918 (1966), holding that a Court’s decision cannot rest on conjecture or
speculation by an expert witness. The Petitioner through his then Attorneys filed answers to the
complaints and a motion to dissolve the summary suspension (Exhibit A). Hearings were held
on that motion on March 12, March 14 and March 21, 2018. The hearing were filled with
fabricated evidence, lies and liars. Mr. Bruce Johnson, Mr. Timothy Erickson and Ms. Janice
Waldmiller came to the hearing with fabricated evidence, names on some prescriptions scratched
out with black pens, witnesses coached to lie on the stand and most of “the evidence” used
#

against the Petitioner concealed. The Petitioner had never written a single Oxymorphone in his
life, yet he was ranked 21st among the Michigan doctors. The Petitioner had never written a
single Oxycodone in his life yet he was ranked 26th. The Petitioner had never written a single
Xanax 2mg in his life, yet he was ranked. The Petitioner had never written Promethazine with
Codeine 16 oz (Exhibit E) yet he was ranked number one and the list went on and on. The
Respondent victimized the Petitioner by fueling a media circus with outright lies. On March
23rd 2018, after three day hearings, Judge Williams saw through the lies and dissolved the
suspension ( Exhibit B ). That was when everything was opened for the Petitioner to "map"
himself and view everything for the first time. The Petitioner was shocked to find what he saw.
Thousands of prescriptions filled under his credentials by these criminals who were not even his
patients (Please see Exhibits C,D,E for few of the criminals). In fact, the Petitioner learned from
the Canton city Police that some of the names of the people featured on the MAPS under the
Petitioner’s credentials were fictitious and not even real. The Respondent freely injected lies into
evidence.
The medical-malpractice expert-testimony statute, MCL 600.2169, states that an expert witness
must be licensed and, "if [the defendant] is a specialist who is board certified, the expert witness
6

must be a specialist who is board certified in that same specialty." MCL 600.2169( 1 )(a). Dr.
David Nicolaou, the State’s expert witness was not competent and was not qualified to testify.
The plain language of MCL 600.2I69(l)(a) precluded Dr. David Nicolaou, the State expert
witness from offering any testimony regarding the applicable standard of practice or care, the
Petitioner is board certified in Addiction Medicine by the American Board of Addiction
Medicine and the State’s expert witness Dr. Nicolaou is board certified in Emergency Medicine.
That was a big mistake. Here is ER Physician Vs Out Patient Physician. Acute Conditions Vs
Chronic Conditions. General Practice Vs. Subspecialty. Huge knowledge gap. Dr. Nicolaou
made inferences without solids facts. Anybody who is well versed in medicine knows that Dr.
Nicolaou cannot compare himself with the Petitioner. For a Provider to be able to manage a
disease very well, that Provider should know the pathogenesis of the disease. The Provider
should also know the Pharmacodynamics and Pharmacokinetics of the medications being used.
Something Dr Nicolaou disagreed and did not know. Dr. Nicolaou even did not know the basic
conversions of MME of opioids. Dr Nicolaou himself raised the issue of Oxycodone 90 mg.
When asked the MME of that, Dr. Nicolaou was up 5 point. (135 vs 140). There is no room for
errors in medicine. Providers are dealing with human lives not woods or metals. Dr. Nicolaou
thought Tussionex is a single medication (Hydrocodone). He didn’t even know its indication.
TUSSIONEX- Pennkinetic is a combination of hydrocodone, an opioid agonist; and
chlorpheniramine, a histamine-1 (HI) receptor antagonist, indicated for the temporary relief of
cough and upper respiratory symptoms associated with allergy or the common cold in patients 18
years of age and older]. And the list goes on and on. When the Petitioner tried to correct Dr.
Nicolaou so that they would be on the same page, Dr Nicolaou started running his mouth and
became belligerent. After the first day, when Dr. Nicolaou saw that the Petitioner would not be a
cool walk, Dr. Nicolaou decided to testify over the phone. The Petitioner wanted Dr. Nicolaou to
testify in person. The Petitioner Verses Dr. Nicolaou. There would have been” medical
hematomas”.
Dr Nicolaou tried to take a jab at the Petitioner’s notes. Doctors are not required to spend their
whole time writing thesis about their patients’ visits .Providers are required to make reasonable
efforts to document their patients’ visits. Templates are created to assist doctors with
documentations. So that the Providers get and spend ample time with their patients. Patients’
charts are susceptible to criticisms and the Petitioner as an MD, MPH, MRO, FASAM and a
7

diplomate of American board of addiction medicine, can rip up Dr. Nicolaou’s notes within
seconds, if the Petitioner wants to be critical of Nicollaou. If a Provider has no notes on a patient
that he/she saw, then that is a problem. Every Provider is required to make a reasonable effort to
write notes on a patient he/she saw. The “SOAP” notes formats are the same, whether in the
Soviet Union, in the United States or in Hong Kong . The ‘S” is for the Patients’ subjective
feeling . The “O” for the Provider’s objective findings. The “A” for the Provider’s Assessments
and Diagnosis and the “P” for the Plan. The SOAP notes is basic knowledge which even every
first year Medical Student knows and writes well. In Boyd v Wynadotte, 402 Mich 98,104-105;
260 NW2d 439 (1977), the Michigan Supreme Court affirmatively stated that evidence of an
alleged breach that didn't cause any harm has "no bearing on whether defendants were
negligent." The Court also held that the negligent record-keeping theory "would have no bearing
on whether a defendant was negligent” .
The initial position of the Respondent was that the Petitioner was “overprescribing”. When that
theory sank like titanic, Mr. Johnson and Co quickly shifted their position to asserting that the
CDC guidelines were somehow “violated.” The CDC guidelines are only clinical
recommendations, they are NOT laws, rules or regulations . They do not have the effect of law.
The Judge Williams correctly quoted the authors on Recommendation No. 11, which is in
contention. That section refers to the fact that the recommendation that “clinicians should avoid
prescribing opioid pain medication and benzodiazepines concurrently whenever possible, PFD,
p. 18. [Emphasis added] That, of course, clearly means that these medications can certainly be
used in certain cases such as the cases of patients MB and BS, and thus the mere use of them
cannot be construed as proving a violation of the “standard of care.” Both MB and BS had the
dual diagnosis of severe pain and severe anxiety and were treated properly as the medical
literatures recommended.
Earlier pain research listed the overall prevalence of comorbid anxiety disorders and pain as
ranging between 16.5% and 28.8%.l However, newer studies suggest that anxiety disorders may
be present in up to 60% of patients with chronic pain. (See, FN 3, supra). It is well published in
the medical literature that both ailments (Lower Back pain and Anxiety) should be treated
concurrently for effective results.
1 McWilliams LA, Goodwin RD, Cox BJ. Depression and Anxiety Associated with Three Pain Conditions: Results from a
Nationally Representative Sample. Pain. 2004;! 11(1-2); 77
8

We believe but we would check. (^OBepafi ho npoBepaft). When MB, JJ, LL and OM turned
out to be dishonest and criminals by engaging in prescription frauds, using the Petitioner’s
credentials, the four were immediately terminated from the Petitioner’s clinic and appropriate
authorities (DEA and Police) notified. Patients would never confide to a Doctor, their
underlying fears and embarrassing information if they perceived that the Doctor was indifferent,
judgmental or hostile. So the Petitioner never exhibited that kind of behavior to patients. The
opioid contract emphasized on the risks of substance use and overdose associated with controlled
substances containing an opioid. Mixing opioids with benzodiazepines, alcohol, muscle
relaxants, etc. For female who were pregnant or were of reproductive age, the heightened risk of
short and long term effect of opioids including but not limited to neonatal abstinence syndromes
were stress. Safe disposal of opioids and safe storage of medications to prevent family members
from reaching them also stressed. The patients were informed by the Petitioner, what the contract
stressed, that it was a felony to illegally deliver, distribute or share controlled substances without
a prescription properly issued by a licensed health care prescriber and all the patients verbalized
understanding of the contract provided. Everything was instituted to combat diversions. All the
six patients were seen for legitimate medical purposes, and in good faith as the Petitioner
extensively testified.
The Subcommittee also came in later to make a farce of the administrative process. Mr. Johnson
and his group had converted the Subcommittee’s functions to a conveyor belt of convictions
based on fabricated evidence. The Respondent who was the prosecutor and the Judge also made
use of the” local effect” also known as the “ Ottawa road” effect to bulldozer its way through the
State’s judicial system. At the core of a real fair judicial system is the unfettered right to due
process and equal protection of the law . The Michigan Appeals Court’s decision is stunningly
one-sided in its focus and, thus, utterly arbitrary and capricious. As indicated in the brief, the
transcripts and the exhibits, the Petitioner presented extensive testimonies and provided
numerous evidence pertaining to each of these disputed facts, though one would not know it
from the Appeals Court Opinion analysis. The Petitioner was not even present when the
Subcommittee met. In fact the Petitioner did not know that there was a meeting and no one
represented him over there. Because the Petitioner rightly refused to accept responsibility for
something he had NOT done. The Subcommittee meted on the Petitioner, the harshest
punishment. Suspending his license for six months ( 6 months) and one day (1 day),
commencing May 5th 2019 and fifteen thousand dollar ($15000.00) fine. The Petitioner’s
controlled substance license revoked and Ten thousand dollars ($10,000.00) fine imposed. The
Petitioner appealed the decision to all the way to the Michigan Supreme Court. The Petitioner
filed the reply brief himself. (Exhibit F). On March 30th, 2021, the Michigan Supreme Court
declined to review the case stating that the question presented by the Petitioner’s then attorney is
“not for this Court” ( Exhibit G). The Michigan Supreme Court failed to state which Court the
9

question is for.
Another strange thing, the Petitioner’s case was scheduled for oral argument on May 5th 2020 via
zoom. The oral argument was suspiciously cancelled “due to Covid 19” . The Petitioner saw that
his then Attorneys had been very ineffective and had not done a good job with the brief and the
Petitioner was looking forwarding to answering any questions which the Justices might have.
Even though all the answers can be found in the five day hearings/ transcripts, everyone knows
that no Court would spend that much time going through all the five day transcripts. Cancelling
the oral argument adversely affected the Petitioner. The oral argument was cancelled due to
“Covid 19”. If the oral argument was going to be done via zoom, then the risk of infection was
zero. The Petitioner does not want to sound redundant. The Michigan Supreme Court Reply
Brief written by the Petitioner (Exhibit F) answers all the questions raised in the Appeals
Court.
The Michigan Court of Appeal’s opinion cannot withstand review, because it fails to consider
contradictory record evidence where such evidence is precisely on point. Such a lapse of
reasonable and fair decision making is particularly acute where, as here, the opinion entirely
ignores the Petitioner’s evidence and testimony (Exhibit G). The Michigan Appeals Court’s
decision is stunningly one-sided in its focus and, thus, utterly arbitrary and capricious.
The court "may not find substantial evidence 'merely on the basis of evidence which in and of
itselfjustified [the agency's decision], without taking into account contradictory evidence or
evidence from which conflicting inferences could be drawn.’" Lakeland Bus Lines, Inc. v.
NLRB, 347 F.3d 955, 962 (D.C. Cir. 2003) (quoting Universal Camera Corp. v. NLRB, 340 U.S.
474, 487, 71 S.Ct. 456, 95 L.Ed. 456 (1951)). And, while the agency is the ultimate factfinder,
the Petitioner’s evidence and testimony are part of the record, and the record must be
considered as a whole in order to see whether the result is supported by substantial evidence.
A court must set aside agency action it finds to be 'arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law.’" Tourus Records, Inc. v. DEA, 259 F.3d 731, 736
(D.C. Cir. 2001) (quoting 5 U.S.C. § 706(2)(A) (2000)). ”[A]n agency [decision is] arbitrary and
capricious if the agency ... entirely failed to consider an important aspect of the problem,
offered an explanation for its decision that runs counter to the evidence before the agency, or is
so implausible that it could not be ascribed to a difference in view or the product of agency
10

expertise." Motor Vehicle Mfrs. Ass'n of the United States, Inc. v. State Farm Mut. Auto. Ins.
Co., 463 U.S. 29, 43, 103 S.Ct. 2856, 77 L.Ed.2d 443 (1983). Although the respondent is the
ultimate fact finder, the agency's decision is vulnerable when it does not take the Petitioner’s
testimony and evidence into consideration. That is in Violation of the Petitioner’s Due process
clause enshrined in the 5th and the 14th Amendments.
Rulings by disciplinary subcommittees of regulated professionals are reviewed on appeal solely
under Const 1963, art. 6, § 28. Dep’t of Community Health v. Anderson , 299 Mich.App. 591,
597, 830 N.W.2d 814 (2013); Dep’t of Community Health v. Risch , 274 Mich.App. 365, 371,
733 N.W.2d 403 (2007). Const. 1963, art. 6, § 28, provides, in relevant part:
“ All final decisions, findings, rulings and orders of any administrative officer
or agency existing under the constitution or by law, which are judicial or quasi-judicial and affect
private rights or licenses, shall be subject to direct review by the courts as provided by law. This
review shall include, as a minimum, the determination whether such final decisions, findings,
rulings and orders are authorized by law; and, in cases in which a hearing is required, whether
the same are supported by competent, material and substantial evidence on the whole record”.
A court must review the entire record, not just the portions that support an agency’s findings,
when assessing "whether an agency’s decision was supported by competent, material, and
substantial evidence on the whole recordf.J" Risch, 274 Mich.App. at 372, 733 N.W.2d 403.
"Substantial evidence" means "evidence that a reasonable person would accept as sufficient to
support a conclusion." Id. This may be substantially less than a preponderance of evidence, but
does require more than a scintilla of evidence. Id. For purposes of Const. 1963, art. 6, § 28, a
decision is not "authorized by law" when it is in violation of a statute or a constitutional
provision, in excess of an agency’s statutory authority or jurisdiction, made upon unlawful
procedure that results in material prejudice, or when it is arbitrary and capricious. Northwestern
Nat’1 Cas. Co. v.Comm’r of Ins., 231 Mich.App. 483, 488, 586 N.W.2d 563 (1998).
The Petitioner’s opioid contract and SOAP notes emphasized on the risks of substance use and
overdose associated with controlled substances containing an opioid. Mixing opioids with
benzodiazepines, alcohol, muscle relaxants, etc. For female who were pregnant or were of
reproductive age, the heightened risk of short and long term effect of opioids including but not
limited to neonatal abstinence syndromes were stress. Safe disposal of opioids and safe storage
11

of medications to prevent family members from reaching them also stressed. The patients were
informed by the Petitioner, what the contract stressed, that it was a felony to illegally deliver,
distribute or share controlled substances without a prescription properly issued by a licensed
health care prescriber and all the patients verbalized understanding of the contract provided.
Everything was instituted to combat diversions. The other diversion enforcement area such as
investigations, arrests and prosecutions were supposed to be done by the Detroit DEA and local
police. In Detroit Metropolitan area, the DEA and the local police enforcements have woefully
failed.
The Respondent acting under the color of the State law violated the Due Process Clause which is
enshrined in both the Fifth and Fourteenth Amendments to the United States constitution. Such
as:
1 - The right to an unbiased trial
2- The right of being aware of all evidence against him
3- The right to freely cross-examine witnesses
4- The right to freely present evidence
The Michigan Appeals Court’s decision is stunningly one-sided in its focus and, thus, utterly
arbitrary and capricious..
The Michigan Appeals Court’s assertions that the whole evidence/records were examined were
far-fetched. If the Appeals Court had examined the whole evidence/records as required by law
before arriving at conclusions, the Appeals Court would have found the following:
1) Dr. Nicolaou’s qualifications and knowledge were challenged from day one. Nicolaou’s and
the Petitioner’s qualifications and knowledge do not match.
2) Ms. Janice Waldmiller’s qualifications and knowledge were challenged. Mr. Bruce Johnson
had to step in and stop the Petitioner from cross examining to save Ms. Waldmiller. Ms.
Waldmiller was RPh not PharmD. Her knowledge showed. It was abysmal. The Petitioner did
not mean to humiliate her, he wanted to see whether she knew what she was charged to
investigate. Ms. Waldmiller drew conclusions without knowing the basic facts. Waldmiller
knowingly lied on the stand
12

3) Krystalla Cross is a liar, not credible and prescription fraudster who was caught red-handed
and fired. To cover her covert prescription frauds, she used aliases to verify prescriptions for her
criminals. When Krystalla Cross’ criminal activities were uncovered, she lost all the respects the
patients had for her. Cross is still walking free because Mr. Bruce Johnson, Michigan Assistant
Attorney has pardoned her in exchanged for her manufactured lies. Krystalla Cross is not
credible. The Petitioner has a voice recording of Ms Cross engaging in the prescription fraud
using alias Anita (Transcript, 3/14/18, pp. 33, 214-218.)).
4) Dr Uche Obua, a Nurse Practitioner who has two PHD Degrees, is credible and has
impeccable reputation. Highly respected by all patients. He refuted Cross’ accusations that the
Petitioner saw Patients in group and wrote prescriptions before seeing patients. Krystalla Cross
was simply a spiteful and angry former employee who was caught red-handed doing
prescription fraud and got fired. Police report was filed against her.
5) Akeela Noel, the Office Manager is credible with clean record and well respected by all the
patients.
6) Francina Kirk, a Medical Assistant is credible with clean record and well respected by all the
patients.
7) The CDC guidelines are clinical recommendations. The Authors of the guidelines have
mightily stated that the CDC guidelines are NOT laws, NOT rules and NOT regulations. The
Petitioner’s guidelines were more stringent than the CDC guidelines.
8) Every patient was schooled on the risks and benefits of all medications and treatments. Every
patient signed opioid contract in which the risks and benefits of opioids Benzos, muscle relaxants
etc well laid out.
9) The Petitioner had plan in place to stamp out diversion by seeing and monitoring Patients
monthly. Patients who received opioids were given not more than 30MMED (30 vs 90), lower
quantity, MAPS pulled before Patients were given controlled medication. Refills never put on
controlled medications to limit access and quantity. Frequent toxicology performed etc. Drug
Diversion preventions are multifunctional, interdepartmental and involve investigations.
Maintain data base of cases. Assure proper reporting to authorities before case closed. The
Petitioner gave the Detroit DEA and several Michigan local police departments wealth of
13

information. But those Authorities failed to act on, making the cases continued as long as they
did. Krystalla Cross would have been caught earlier.
10) All Patients were informed that it was a felony to illegally deliver, distribute or share
controlled substances as spelt out in the contracts.
11) The Patients who breached any part of the contracts were terminated and the appropriate
authorization informed, if indicated.
12) All Patients counseled on prescription drugs and street drug during every visit. Opioid and
Benzos never given concurrently whenever possible.
13) Mr. Johnson and Co had been making inferences without proofs.
14) The State of Michigan, through its employees knowingly lied, concealed evidence, and
blocked proper Due Process. All the witnesses the Respondent presented had been coached to lie.

REASONS FOR GRANTING THE WRIT
Reasons for Granting the Petition
J. State supreme courts are divided on the question
presented.
IT. The case presents an issue of national importance.
III. The Michigan Supreme Court’s decision is incorrect.
At the core of a real fair judicial system is the unfettered right to due process and equal
protection of the law . The Michigan Appeals Court’s decision is stunningly one-sided in its
focus and, thus, utterly arbitrary and capricious. As indicated in the brief and the exhibits, the
Petitioner presented extensive testimonies and evidence pertaining to each of these disputed
facts, though one would not know it from the Appeals Court Opinion analysis.

14

The Respondent’s findings, and conclusions were arbitrary, capricious. The Respondent abused
its discretion. The Respondent’s action were not in accordance with law and were contrary to
constitutional right, power, privilege/ immunity. The Respondent’s action were
in excess of statutory jurisdiction, authority/ limitations, and short of statutory right and
without observance of procedure required by law.
The Michigan Court of Appeals’ opinion is unsupported by substantial evidence provided by
statute. The Michigan Appeal’s Court’s opinion is unwarranted by the facts to the extent that the
facts are subject to trial de novo by the reviewing court.
In making the foregoing determinations, the court shall review the whole record or those parts of
it cited by a party, and due account shall be taken of the rule of prejudicial error.
This Court adopted a set of prophylactic measures to protect the Petitioner’s Due Process Clause
enshrined in both 5th and 14th Amendments.
The decision by the Court of Appeals is plainly incorrect, as it both contradicts the bright-line
holding of MCL 600.2169 and the express purpose of the rule.
The present case is a textbook example of the arm strong arm tactics the Respondent has been
using to crash Innocent Physician. Despite having clearly invoked his right to qualified expert
witness, the Petitioner was nonetheless placed in “an interrogation room” and subjected to
the Respondent who had no legitimate reason for doing so. Despite observing that the
Respondent’s actions violated MCL 600.2169, the Court of Appeals then proceeded with its
analysis without any acknowledgement that the Respondent actions have affected the Petitioner’s
Constitutional Rights. Making most vulnerable Physicians to feel that the invocation of the right
to qualified expert is meaningless:
The Court of Appeals’ erroneous decision circumvents this premise, effectively
permitting the Respondent the right to use strong-arm tactic and break the law.
Next, the Respondent invoked the CDC guidelines for Opioid prescribing. Well, the authors of
the CDC guidelines Dr. Deborah Dowell, Dr. Tamara Haegerich and Dr, Roger Chou
specifically and publicly stated that the CDC guidelines are only clinical recommendations, they
are NOT laws, rules or regulations . They do not have the effect of law. The Respondent has
15

been trying to shamelessly distort the CDC guidelines to make them fit its narrative of the
applicable standard of practice or care. The CDC guidelines have no applicable standard for
patients’ assessments and notes writing.
Lastly, Congress entrusted DEA—not Physicians —with the responsibility, tools, and legal
authority to investigate, arrest and prosecute criminals and bad actors who want to make it bad
for legitimate Patients. The Respondent’s legal contentions about the duties of Physicians
cannot be found anywhere in the text of the Controlled Substance Act (the CSA) or in any DEA
regulation. At most, the Respondent has stitched its untested position together from scattered and
informal letters and PowerPoint presentations by its officials. But these documents are not law,
as DOJ has recently reaffirmed in rules and other public statements. In any event, the
Respondent’s opioid “guidance” is often inconsistent or even irreconcilable with the expert
judgment of federal health agencies, and with other state practice of medicine and pharmacy
laws.
This case presents this Court with an opportunity to clarify. Absent intervention by this Court,
the Michigan Court of Appeals' opinion will work to undermine the carefully-crafted procedural
safeguards and rule of law that this Court and Congress have spent years developing. The
Michigan Appeals Court’s decision is stunningly one-sided in its focus and, thus, utterly
arbitrary and capricious.

X. CONCLUSION
For the foregoing reasons, the Petitioner respectfully requests that this Honorable Court
issue a writ of certiorari to review the opinion of the Michigan Court of Appeals.
Respectfully Submitted
/s/ Solomon Adu-Beniako
SOLOMON ADU-BENIAKO

DATED June 28, 2021.

16

